No:

In the Supreme Court of the United States

Torres. Marco M. - Petitioner
(Your Name)
Vs.
Donald Trump and all of the House of the Senate- Respondents
Proof of Service
x

7

I Torres, Marco M. do swear or declare that on this date.
th-Mavr2020. as
required by Supreme Court Rule 29. I Torres. Marco M. served the enclosed Motion
for leave to proceed in forma pauperis and petition for a writ of certiorari on each
party’s to the above proceeding or that party’s counsel, and on every other person
required to be served, by depositing an envelope containing the above documents in
the United States mail properly addressed to each of them and with first class postage
prepaid, or by delivery to a third party commercial carrier for delivery within 3 calendar
days.
The names and address of those served are as follows:
1. Donald Trump (The President of the United States of America)
1600 Pennsylvania Ave. N.W.
Washington, D.C. 20500
2. Young, Todd
The House of Senate, office
185 Dirksen Senate office Bldg.
City of Washington, D.C. 20510
3. Wyden, Ron
The House of Senate, office
221 Dirksen Senate office Bldg.
City of Washington, D.C. 20510

4. Wicker, Roger
The House of Senate
555 Dirksen Senate office bldg.
City of Washington, D.C. 20510
5. Whitehouse, Sheldon
The House of Senate
530 Hart Senate office Bldg.
City of Washington, D.C. 20510
6. Warren, Elizabeth
The house of Senate
309 Hart Senate office Bldg.
City of Washington, D.C. 20510
7. Warner, Mark
The House of Senate
703 Hart Senate office Bldg.
City of Washington, D.C. 20510
8. Van, Hollen
The House of Senate
110 Hart Senate Bldg.
City of Washington, D.C, 20510
9. Udell, Tom
The House of Senate
531 Hart Senate office Bldg.
City of Washington, D.C. 20510
lO.Toomey, Patrick
The House of Senate
248 Russell Senate Bldg.
City of Washington, D.C. 20510
H.Tillis, Thom
The House of Senate
113 Dirksen Senate office Bldg.

City of Washington, D.C. 20510
12.Thune, John
The House of Senate
511 Dirksen Senate office Bldg.
City of Washington, D.C. 20510
13. Tester, Jon
The House of Senate
311 Hart Senate office Bldg.
City of Washington, D.C. 20510
14. Sullivan, Dan
The House of Senate
302 Hart Senate Bldg.
City of Washington, D.C. 20510
15.Stabenow, Debbie
The House of Senate
731 Hart Senate office bldg.
City of Washington, D.C. 20510
16. Smith, Tina
The House of Senate
720 Hart Senate office Bldg.
City of Washington, D.C. 20510
17. Sinema, Kyrsten
The House of Senate
317 Hart Senate office Bldg.
City of Washington, D.C. 20510
18. Shelby, Richard C.
The House of Senate
304 Russell Senate office Bldg.
City of Washington, D.C. 20510
19.Shaheen, Jeanne
The House of Senate

506 hart Senate office Bldg.
City of Washington, D.C. 20510
20. Scott, Tim
The House of Senate
104 Hart Senate office Bldg.
City of Washington, D.C. 20510
21. Scott, Rick
The House of Senate
716 Hart Senate office Bldg.
City of Washington, D.C. 20510
22. Schumer, Charles
The House of Senate
322 Hart Senate office Bldg.
City of Washington, D.C. 20510
23. Schatz, Brian
The House of Senate
722 Hart Senate office Bldg.
City of Washington, D.C. 20510
24. Sasse, Ben
The House of Senate
107 Russell Senate office Bldg.
City of Washington, D.C. 20510
25. Sanders, Bernard
The House of Senate
322 Dirksen Senate office Bldg.
City of Washington, D.C. 20510
26. Rubio, Marco
The House of Senate
284 Russell Senate office Bldg.
City of Washington, D.C. 20510
27. Rounds, Mike

The House of Senate
502 Hart Senate office Bldg.
City of Washington, D.C. 20510
28. Rosen, Jacky
The House of Senate
144 Russell Senate office Bldg.
City of Washington, D.C. 20510
29. Romney, Mitt
The House of Senate
City of Washington, D.C. 20510
30. Roberts, Pat
The House of Senate
109 Hart Senate office Bldg.
City of Washington, D.C. 20510
31. Risch, James E.
The House of Senate
483 Russell Senate office Bldg.
City of Washington, D.C. 20510
32. Reed, Jack
The House of Senate
728 Hart Senate office Bldg.
City of Washington, D.C. 20510
33. Partmen, Rob
The House of Senate
448 Hart Senate office Bldg.
City of Washington, D.C. 20510
34. Peter, Gary C.
The House of Senate
724 Hart Senate office Bldg.
City of Washington, D.C. 20510
35. Perdue, david

The House of Senate
455 Russell Senate office Bldg.
City of Washington, D.C. 20510
36. Paul, Rand
The House of Senate
167 Russell Senate office Bldg.
City of Washington, D.C. 20510
37. Murray, Patty
The House of Senate
154 Hart Senate office Bldg.
City of Washington, D.C. 20510
38. Murphy, Christopher
The House of Senate
136 hart senate office Bldg.
City of Washington, D.C. 20510
39. Murkowski, Lisa
The House of Senate
522 Hart senate office Bldg.
City of Washington, D.C. 20510
40. Moran, Jerry
The House of Senate
521 Dirksen Senate office Bldg.
City of Washington, D.C. 20510
41. Merkley, Jeff
The House of Senate
313 Hart Senate office Bldg.
City of Washington, D.C. 20510
42. Menedez, Robert
The House of Senate
528 Hart Senate office Bldg.
City of Washington, D.C. 205120

43. McSally, Martha
The House of Senate
404 russell senate office Bldg.
City of Washington, D.C. 20510
44. McConnell, Mitch
The House of Senate
317 Russell Senate office Bldg.
City of Washington, D.C. 20510
45. Markey, Edward J.
The House of Senate
255 Dirksen Senate office Bldg.
City of Washington, D.C. 20510
46. Manchin, Joe
The House of Senate
306 hart Senate office Bldg.
City of Washington, D.C. 20510
47. Loeffler, Kelly
The House of Senate
131 Russell Senate office Bldg.
City of Washington, D.C. 20510
48. Lee, Mike
The House of Senate
361 A Russell Senate office Bldg.
City of Washington, D.C. 20510
49. Leahy, Patrick
The House of Senate
City of Washington, D.C. 20510
50. Lankford, james
The House of Senate
316 Hart Senate office Bldg.
City of Washington, D.C. 20510

51. Klobucher, Amy
The House of Senate
425 Dirksen Senate office Bldg.
City of Washington, D.C. 20510
52. King, Anhus
The House of Senate
133 hart Senate office bldg.
City of Washington, D.C. 20510
53. Kennedy, John
The House of Senate
416 Russell Senate office Bldg.
City of Washington, D.C. 20510
54. Kaine, Tim
The House of Senate
231 Russell Senate Bldg.
City of Washington, D.C. 20510
55. Jones, Doug
The House of Senate
330 hart Senate office Bldg.
City of Washington, D.C. 20510
56. Johnson, Ron
The House of Senate
328 Hart Senate office Bldg.
City of Washington, D.C. 20510
57. Infofe, James
The House of Senate
205 Russell Senate office Bldg.
City of Washington, D.C. 20510
58. Hyde, Smith Cindy
The House of Senate
702 Hart Senate office Bldg.
City of Washington, D.C. 20510

59. Hoeven, John
The House of Senate
338 Russell Senate office Bldg.
City of Washington, D.C. 20510
60. Hirano, Marzie K.
The House of Senate
713 Hart Senate office Bldg.
City of Washington, D.C. 20510
61. Heinrich, Martin
The House of Senate
303 Hart Senate office Bldg.
City of Washington, D.C. 20510
62. Hawley, Josh
The House of Senate
212 Russell Senate office Bldg.
City of Washington, D.C. 20510
63. Hassen, Margaret W.
The House of Senate
324 Hart Senate office Bldg.
City of Washington, D.C. 20510
64. Harris, kamala
The House of Senate
112 hart Senate office Bldg.
City of Washington, D.C. 20510
65. Grassley, Chuck
The House of Senate
135 hart Senate office Bldg.
City of Washington, D,C. 20510
66. Graham, Lindsey
The House of Senate
240 Russell Senate office Bldg.

City of Washington, D.C. 20510
67. Gillbrand, Kirsten
The House of Senate
478 Russell Senate office Bldg.
City of Washington, D.C. 20512
68. Garden, Corey
The House of Senate
354 Russell Senate office Bldg.
City of Washington, D.C. 20510
69. Fischer, Deb
The House of Senate
454 Russell senate office Bldg.
City of Washington, D.C. 20510
70. Feinstein, Dianne
The House of Senate
331 hart Senate office Bldg.
City of Washington, D.C. 2051
71. Ernst, Joni
The House of Senate
730 hart Senate office Bldg.
City of Washington, D.C. 20510
72. Enzi, michael
The House of Senate
379 A Russell Senate office Bldg.
City of Washington, D.C. 20510
73. Durin, Richard
The House of Senate
711 Hart Senate office Bldg.
City of Washington, D.C. 20510
74. Duckworth, Tammy
The House of Senate

524 hart Senate office Bldg.
City of Washington, D.C. 20510
75. Daine, Steve
The House of Senate
320 hart Senate office Bldg.
City of Washington, D.C. 20510
76. Cruz, Ted
The House of Senate
127 A Russell Senate office Bldg.
City of Washington, D.C. 20510
77.Crapo, Mike
The House of Senate
239 Dirksen Senate office Bldg.
City of Washington, D.C. 20510
78. Cramer, Kevin
The House of Senate
400 Russell Senate office Bldg.
City of Washington, D.C. 20510
79. Cotten, Tom
The House of Senate
516 Russell Senate office Bldg.
City of Washington, D.C. 20510
80. Cortez, Masto
The House of Senate
516 Hart Senate office Bldg.
City of Washington, D.C. 20510
81. Ornyn, John
The House of Senate
517 Hart Senate office Bldg.
City of Washington, D.C. 20510
82. Coons, Christopher A.

The House of Senate
218 Russell Senate office Bldg.
City of Washington, D.C. 20510
83. Collins, Susan M.
The House of Senate
413 Russell Senate office Bldg.
City of Washington, D.C. 20510
84. Cassidy, bill
The House of Senate
520 hart Senate office Bldg.
City of Washington, D.C. 20510
85. Casey, Roberts P. Jr.
The House of Senate
393 Russell senate office Bldg.
City of Washington, D.C. 20510
86. Carper, Thomas R.
The House of Senate
513 hart Senate office Bldg.
City of Washington, D.C. 20510
87. Cardin, Benjamin Jr.
The House of Senate
509 Hart Senate office Bldg.
City of Washington, D.C. 20510
88. Capito, Shally Moore
The House of Senate
172 Russell Senate office Bldg.
City of Washington, D.C. 20510
89. Cantwell, Maria
The House of Senate
511 hart Senate office Bldg.
City of Washington, D.C. 20510

90. Burr, Richard
The House of Senate
217 Russell Senate office Bldg.
City of Washington, D.C. 20510
91. Brown, Sherrod
The House of Senate
503 Hart Senate office Bldg.
City of Washington, D.C. 20510
92. Braun, Mike
The House of Senate
374 Russell Senate office Bldg.
City of Washington, D.C. 20510
93. Boozman, John
The House of Senate
141 Hart Senate office Bldg.
City of Washington, D.C. 20510
94. Booker, Cory A.
The House of Senate
717 hart Senate office Bldg.
City of Washington, D.C. 20510
95. Blunt, Roy
The House of Senate
260 Russell Senate office Bldg.
City of Washington, D.C. 20510
96. Blumenthal, Richar
The House of Senate
706 Hart Senate office Bldg.
City of Washington, D.C. 20510
97. Blackburn, Marsha
The House of Senate
357 Dirksen Senate office Bldg.
City of Washington, D.C. 20510

98. Barrasso, John
The House of Senate
307 Dirksen Senate office Bldg.
City of Washington, D.C. 20510
99. Baldwin, Tammy
The House of Senate
154 Russell Senate office Bldg.
City of Washington, D.C. 20510
100. Alexander, Lamar
The House of Senate
455 Dirksen Senate office Bldg.
City of Washington, D.C. 20510

I Torres, Marco M. declare under penalty of perjury that the foregoing is true and
correct.
—Execute

fTof MayT2020.

